      TESTIMONY OF PHYLLIS K. FONG
           INSPECTOR GENERAL
      OFFICE OF INSPECTOR GENERAL
    U.S. DEPARTMENT OF AGRICULTURE

               Before the

     U.S. HOUSE OF REPRESENTATIVES
    COMMITTEE ON FINANCIAL SERVICES
SUBCOMMITTEE ON HOUSING AND COMMUNITY
              OPPORTUNITY

                  ON

       RURAL HOUSING IN AMERICA

             JUNE 19, 2003
                        INTRODUCTION

Thank you, Mr. Chairman and members of the Subcommittee. I

am pleased to be here to provide testimony about the Office of

Inspector General’s (OIG) work on the U.S. Department of

Agriculture’s rural housing programs. With me today are

Robert W. Young, Deputy Assistant Inspector General for Audit,

and Jon E. Novak, Acting Assistant Inspector General for

Investigations. I would like to submit my statement for the record

and summarize the highlights for you at this time.




                                 2
                           BACKGROUND


The U.S. Department of Agriculture’s Rural Development (RD)

mission area administers programs that are designed to meet the

diverse needs of rural communities with a variety of loan, loan

guarantee, and grant programs, including technical assistance and

cooperative development. Within the RD mission area is the Rural

Housing Service (RHS), which has three primary programs -

Single Family Housing; Multi-Family Housing; and Community

Facility programs.




RHS is responsible for providing decent, safe, sanitary, and

affordable housing and community facilities in rural communities.

It issues loans and grants for rural single family houses and Rural

Rental Housing (RRH) apartment complexes, as well as fire

stations, police stations, schools, child care facilities, libraries,

hospitals, and clinics. RHS applicants may include individuals,


                                    3
private organizations, and public entities. RD State offices service

all 50 States and the U.S. Trust Territories, with a centralized

servicing center located in St. Louis, Missouri.




For the current fiscal year (FY), authorized program funding for all

RHS loans and grants totaled $4.3 billion. For FY 2004, the

proposed budget is $5.6 billion.



OIG oversight of the Department’s rural housing programs has

focused on different areas over the past decade. During the 1990s,

we conducted audit work in the RHS program areas of multi-

family housing and single family housing. That work culminated

in a joint OIG/RHS effort in 1999, addressing fraud and threats to

tenant health and safety in the RRH program. Over the past

several years, our audits have focused on specific issues, most

often in response to Congressional and other requests. Two of

these narrow scope audits have identified areas for broader audit


                                   4
coverage. These include insurance coverage in multi-family

housing projects and ineligible recipients for rental assistance. In

addition, our desk officers continue to assess program activities

and provide comments to the agency. The OIG Investigations staff

has also continued to receive and pursue allegations of fraud in

RHS programs.



Based on our prior and current audit and investigative work on

rural housing issues, we have identified six major challenges for

RHS management. These challenges include portfolio

management, unallowable and excessive expenses charged to RRH

projects, RRH projects leaving the program, rental assistance,

allocation of funds to rural areas, and performance measures.




                                  5
                       Portfolio Management

RHS programs provide low-cost housing to rural America. In

particular, the RRH program provides low-cost apartments to

residents with low incomes in rural areas. The portfolio contains

over 17,000 RRH projects and 460,000 housing units, with an

indebtedness of $12 billion in loans. A substantial portion of this

portfolio is over 20 years old. RHS faces a major challenge to

maintain its current portfolio in good repair so that it will provide

safe, decent, and affordable housing for rural America.



               Unallowable and Excessive Expenses

RRH programs are vulnerable to program fraud and abuse because

of the large cashflows involved. OIG has worked with RHS to

address these problems and to stop those who abuse the program

from participating in the program. Our March 1999 report entitled

“ Rural Rental Housing Program Uncovering Program Fraud and

Threats to Tenant Health and Safety” described the results of a



                                  6
nationwide cooperative effort involving OIG and RHS staff to

identify multi-family housing owners and management agents who

misused funds while neglecting the physical condition of RRH

apartment complexes. Financial records reviewed by OIG Audit

staff and RHS employees revealed over $4.2 million in misused

funds at apartment complexes operated by 18 owners and

management agents.



We visited 637 apartment complexes and identified 145 that

showed serious physical deterioration. Problems included:

leaking roofs; worn, moldy, and rotted exterior siding; unsafe

balconies and stairwells; unsecured hazardous materials such as

gasoline; and dangerous equipment in child playground areas. In

response to these findings, RHS worked with owners and

management agents to resolve these serious health and safety

issues.




                                 7
We have found, through our audit and investigative work, that

there are several common schemes used by owners and

management agencies to improperly withdraw funds from RRH

apartment complex accounts.



One scheme involves double-charging apartment complexes for

management-related expenses that are the responsibility of the

management agent and already paid through the management fee.

These costs include bookkeeping, postage, and photocopying fees.



Another common scheme involves the owner or management agent

charging apartment complexes for his/her own personal expenses.



Many unallowable charges are often made by identity-of-interest

companies. An identity-of-interest company usually involves an

owner or management official of the apartment complex who owns

a side business, such as an electrical or maintenance business.



                                 8
Often, ownership in the side business is not disclosed to RHS in

order to hide the relationship. The side business then provides a

service or sells products to the apartment complex. We have found

that transactions involving identity-of-interest companies are

especially vulnerable to abuse because owners and management

agents originate transactions and approve them for payment. The

identity-of-interest companies overcharge the RRH projects for

their services or products with the RRH project suffering the loss.

Further, there is no independent monitoring or approval of the

payments, or other effective, compensating control to ensure the

work was necessary, completed satisfactorily, and reasonably

priced.



In the schemes described above, we often find that the misused

funds are withdrawn from RRH project accounts. These project

accounts are required by RHS so that the complexes maintain

enough funds for large-scale repair and maintenance projects,



                                 9
which are periodically needed (e.g., new roofing, paving of

parking lots). Any time a borrower needs to utilize funds from the

project accounts, he/she must obtain approval from RHS. In these

equity-skimming schemes, the borrower submits fraudulent

information to RHS about project account balances or charges to

the project account. We have also found that local banks do not

always enforce the requirement that all project account

withdrawals for major capital improvements or purchases be

approved and co-signed by RHS.



RHS has developed proposed regulations to address problems

identified by OIG audit and investigative work. Our assessment of

the regulations, as currently drafted, concluded that the proposal

satisfactorily addressed 4 of the 19 audit recommendations

designed to improve program integrity and safeguard project

funds. We believe additional work needs to be done on the

remaining 15 recommendations. Since the beginning of the joint



                                 10
effort by OIG and RHS, our investigations of the multi-family and

single family housing programs have led to a number of

indictments, convictions, and monetary results. These cases

involve schemes, as described above, which are designed to divert

program funds through unallowable and excessive expenses.



                RRH Projects Leaving the Program

As the RRH portfolio continues to mature, it is often in the project

owners’ best interest to pre-pay their loans. The majority of

borrowers who received loans between 1979 and 1989 can pre-pay

their loans after 20 years. The incentives for owners to pre-pay

include the increasing repair costs of aging projects, loss of tax

credits, and the possibility of higher rents from more affluent

tenants.



As loans are pre-paid, the availability of low-income housing

decreases. Therefore, RHS offers incentive payments for project



                                  11
owners to stay in the program. The payments are equal to the

equity value in the property at the time pre-payment is planned.

To be eligible for the incentive payment, owners must maintain the

property in good physical condition and must continue to serve

lower-income rural residents. RHS needs to monitor incentive

payments and ensure that once made, project owners continue to

meet the conditions of eligibility.



                          Rental Assistance

The RRH rental assistance program is currently funded at

$712 million in FY 2003. This assistance makes up the difference

between what tenants pay and the rental income required in order

for the project owner to meet debt servicing and other costs.

Tenants receiving this assistance are generally elderly and have

very low incomes. Most recipients pay only a small portion of the

average $300 monthly rent.




                                  12
Currently, there are proposed regulatory changes that will require

project owners to increase the balances in the RRH reserve

accounts used to fund the increasing demands for repair and

rehabilitation of aging projects. The increased reserves will be

funded by increased rents. The basic rent for those tenants on

rental assistance will not increase. To match the increased rents,

the amounts of rental assistance needed to make up the difference

between what the tenants pay and the actual rent necessary for the

project owner to meet expenses will increase.



                Allocation of Funds to Rural Areas

With the continued growth of our cities, areas that were rural just a

few years ago are being taken over by urban expansion. In a 1996

audit, we found that the RHS’ Single Family Housing Program

was not adequately serving truly needy rural communities. We

found that 9 of the 10 States reviewed used less than 13 percent of

their allocated funds for loans in targeted rural areas. Our review



                                 13
of the 10 States disclosed that up to 80 percent of the loans were in

“bedroom” communities immediately adjacent to ineligible

metropolitan areas. RHS agreed to implement controls to better

ensure that targeted rural communities received adequate loan

opportunities.



                      Performance Measures

The RD managers need accurate, relevant performance data to

assess program effectiveness in accomplishing their mission. They

also need strong internal controls to ensure program efficiency and

effectiveness.



In March 2001, OIG evaluated the information contained in RD’s

1999 Annual Program Performance Report required by the

Government Performance and Results Act. We found that in many

cases, the data contained in the report were inaccurate or




                                 14
unsupported. As a result, we found that the report was of little or

no utility.



We believe that these problems are caused primarily by RD’s lack

of guidelines or procedures for accumulating, collecting,

validating, and reporting performance results or for documenting

the methodology for data collection. We also found that, in some

cases, the items being measured were not directly related to RD’s

mission. Further, we found that in some cases the performance

measures could not be supported.



A graphic example of the consequences of such inaccurate data is

recounted in our 2001 audit report “Rural Housing Service

Guaranteed Multi-family Housing Loans.” In that instance, RHS

reported that it had built over 6,500 units when, in fact, it had built

only 222. As a consequence of this inaccuracy, $122 million out

of the total $153 million allotted for this particular program was



                                  15
unused. Had RHS had accurate data, this $122 million could have

been redirected to other projects.



It is incumbent upon management to develop internal controls and

to continually evaluate their effectiveness. The Financial

Managers’ Financial Integrity Act (FMFIA) requires that agencies

report on their systems to identify and to report on material internal

control weaknesses. In March 2002, we issued a report stating

that, while RD had made efforts to comply with the Act,

improvements were needed to ensure material internal control

weaknesses were identified, reported, and acted on. We found that

in the previous 10 years, RD had found only 3 of the 23 material

internal control weaknesses identified in the FMFIA report. The

remaining 20 material weaknesses had been identified in either

OIG or General Accounting Office reports. An effective process

to identify and report material, internal control weaknesses is

essential to ensure they are recognized and management actions



                                  16
are undertaken to resolve the issues. Due to the complexity of RD

programs, it is critical that this process operate effectively.



One example of the potential effect of unchecked material

weaknesses involves the RHS multi-family housing portfolio. The

agency had identified a serious lack of funding of between $850

million and $1 billion in its reserve accounts for repairs of multi-

family housing units. However, it had not identified this as a

material weakness and thus had not taken action to ensure that

adequate funds would be available to pay for critical repairs to the

projects. As a result, up to 25 percent of the agency’s multi-family

housing portfolio could become unsafe or unsanitary.



                           CONCLUSION

In conclusion, we believe RHS faces a number of management

challenges in its efforts to deliver safe and affordable rural housing

programs. RHS itself has acknowledged the challenges that we



                                   17
have discussed in our testimony today. We believe the most

critical challenge of the six that we have identified is the need for

RD to develop accurate, relevant performance data and measures

to assess program efficiency and effectiveness. Without timely

and accurate information, RD will be unable to determine how

well it is accomplishing its mission. Once this challenge is met,

the agency will be better positioned to resolve its other

management issues. OIG is committed to working with RD to help

the agency be even more effective.



Later this year we will initiate an audit on the RRH program. Our

review will include follow-up work to the 1999 report “Rural

Rental Housing Program Uncovering Program Fraud and Threats

to Tenant Health and Safety.” We will, of course, look carefully

for other work that will assist the agency in meeting its

management challenges.




                                  18
This concludes my statement, Mr. Chairman. I would be happy to

answer any questions that you may have.




                               19
